                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              INDEPENDENT ACCOUNTANT’S REPORT ON
                                              AGREED-UPON PROCEDURES FOR THE
                                              RETIREMENT, HEALTH BENEFITS, AND LIFE
                                              INSURANCE WITHHOLDINGS/CONTRIBUTIONS,
                                              AND THE MARCH 31, 2005 SUPPLEMENTAL
                                              SEMIANNUAL HEADCOUNT REPORT


                                              For the Year Ending September 30, 2005

                                               This agreed-upon procedures report was prepared by R. Navarro &
                                               Associates, Inc., under contract to the U.S. Department of Labor, Office
                                               of Inspector General, and by acceptance, it becomes a report of the
                                               Office of Inspector General.



                                                                                   _____________________________
                                                                                   Assistant Inspector General for Audit




                                                                            Date Issued: September 27, 2005
                                                                            Report Number: 22-05-012-13-001
                                                                                Agreed-Upon Procedures Report
                                                          Submitted to the U.S. Office of Personnel Management



Table of Contents
ASSISTANT INSPECTOR GENERAL FOR AUDIT’S LETTER ..................................... 3
EXECUTIVE SUMMARY ................................................................................................ 4
INDEPENDENT ACCOUNTANT’S REPORT ON APPLYING AGREED-UPON
PROCEDURES ............................................................................................................... 7
EXHIBIT .......................................................................................................................... 9
   Exhibit A ................................................................................................................... 11
APPENDICES ............................................................................................................... 19
   Appendix A............................................................................................................... 21




Prepared by R. Navarro & Associates, Inc., for the                                                                                1
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
    PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                          Submitted to the U.S. Office of Personnel Management




      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                Prepared by R. Navarro & Associates, Inc., for the
                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

U.S. Department of Labor                        Office of Inspector General
                                                Washington, DC 20210




                     Assistant Inspector General for Audit’s Letter



Mr. Michael Esser
Chief, Internal Audits Group
U. S. Office of Personnel Management
Office of Inspector General
1900 E Street, NW, Room 6400
Washington, DC 20415-0001

Dear Mr. Esser:

Enclosed is the Independent Accountant’s Report on the Agreed-Upon Procedures for
Retirement, Health Benefits and Life Insurance Withholdings/Contributions, and the Semiannual
Headcount Report (Report No. 22-05-012-13-001). The Office of Inspector General contracted
with the independent certified public accounting firm of R. Navarro & Associates, Inc., CPAs
(RNA) to perform the agreed-up procedures. The contract required that this report be prepared
in accordance with OMB Bulletin 01-02, Appendix 1 (as revised July 27, 2004).

We reviewed RNA's report and related documentation and inquired of its representatives.
However, RNA is responsible for the enclosed agreed-upon procedures and the conclusions
expressed in the report. Our review disclosed no instances where RNA did not comply, in all
material respects, with auditing standards generally accepted in the United States of America,
Government Auditing Standards, and Office of Management and Budget audit requirements.

If you have any questions, please contact Michael McFadden, Office of Accountability Audits,
on (202) 693-5164.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit




Prepared by R. Navarro & Associates, Inc., for the                                               3
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
    PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                          Submitted to the U.S. Office of Personnel Management




      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




4                                Prepared by R. Navarro & Associates, Inc., for the
                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management


                        Executive Summary
We performed the procedures specified in OMB Bulletin 01-02, Audit Requirements for
Federal Financial Statements, Agreed-Upon Procedures, Appendix I-1, as amended by
OMB Memorandum 04-22, to assist the U.S. Office of Personnel Management (OPM) in
assessing the reasonableness of retirement, health benefits, and life insurance
withholdings/contributions, as well as enrollment information submitted via the
Supplemental Semiannual Headcount Report.

This report includes the agreed-upon procedures and the results from applying those
procedures for retirement, health benefits, and life insurance withholdings/contributions,
and employee headcount information submitted to OPM.

The agreed-upon procedures included U.S. Department of Labor personnel and payroll
information for the semiannual period ended March 31, 2005. Agreed-upon procedures
generally comprised comparative and analytical functions. As required by the agreed-
upon procedures, we used a random sample selection methodology.

There were no discrepancies in the AUP.

Our procedures were performed in accordance with attestation standards established
by the American Institute of Certified Public Accountants and Government Auditing
Standards issued by the Comptroller General of the United States.




Prepared by R. Navarro & Associates, Inc., for the                                           5
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
    PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                          Submitted to the U.S. Office of Personnel Management




        PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                Prepared by R. Navarro & Associates, Inc., for the
                            U.S. Department of Labor – Office of Inspector General
                                                 Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management




     Independent Accountant’s Report on Applying Agreed-Upon Procedures



Mr. Michael R. Esser
Chief of the Internal Audits Group
U.S. Office of Personnel Management
Office of Inspector General

We have performed the procedures described in OMB Bulletin 01-02, Audit
Requirements for Federal Financial Statements, Agreed-Upon Procedures, Appendix I-
1, as amended by OMB Memorandum 04-22, which were agreed to by the Inspector
General and the Chief Financial Officer of the U.S. Office of Personnel Management
(OPM), solely to assist OPM with respect to the reasonableness of employment
withholdings and employer contributions reported on the Report of Withholdings and
Contributions for Health Benefits, Life Insurance, and Retirement for the payroll periods
ended November 27, 2004, January 22, 2005, and March 5, 2005; and the
Supplemental Semiannual Headcount Report as of March 05, 2005. The U.S.
Department of Labor’s management is responsible for the employment withholdings and
employer contributions reported on the Report of Withholdings and Contributions for
Health Benefits, Life Insurance, and Retirement for the payroll periods ended November
27, 2004, January 22, 2005, and March 5, 2005; and the Supplemental Semiannual
Headcount Report as of March 05, 2005. This engagement to apply agreed-upon
procedures was conducted in accordance with the attestation standards established by
the American Institute of Certified Public Accountants and Government Auditing
Standards issued by the Comptroller General of the United States. The sufficiency of
these procedures is solely the responsibility of the Inspector General and the Chief
Financial Officer of OPM. Consequently, we make no representation regarding the
sufficiency of the procedures described below either for the purpose for which this
report has been requested or for any other purpose.

The agreed-upon procedures and related results of procedures are included in the
attached Exhibit A.




Prepared by R. Navarro & Associates, Inc., for the                                           7
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
                PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                                      Submitted to the U.S. Office of Personnel Management

We were not engaged to, and did not, perform an audit, the objective of which would be
the expression of an opinion on the withholding and contributions of Health Benefits,
Life Insurance, and Retirement and the employee Headcount Report of the U.S.
Department of Labor. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that
would have been reported to you.

This report is intended solely for the information and use of the Inspector General and
the Chief Financial Officer of OPM and is not intended to be and should not be used by
anyone other than these specified parties. This report should not be used by those who
have not agreed to the procedures and taken responsibility for the sufficiency of the
procedures for their purposes.




July 28, 2005

cc: Clarence C. Crawford
    Chief Financial Officer
    Office of Personnel Management

    Samuel T. Mok
    Chief Financial Officer
    U.S. Department of Labor




8                                            Prepared by R. Navarro & Associates, Inc., for the
                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management




Exhibit




Prepared by R. Navarro & Associates, Inc., for the                                           9
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
     PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                           Submitted to the U.S. Office of Personnel Management




       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




10                                Prepared by R. Navarro & Associates, Inc., for the
                             U.S. Department of Labor – Office of Inspector General
                                                  Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

                                                                                   EXHIBIT A
      Step Agreed-Upon Procedures Performed                   Results of Procedures
      1a   Foot the payroll register or payroll data        The payroll information
           file that contains the payroll information.      footed without exception.
      1b   Foot the RITS submission selected.               The RITS submissions
                                                            footed without exception.
      1c      Trace employee withholding information        The payroll information
              shown on the footed payroll information       traced to the
              for retirement, health, and life insurance    corresponding RITS
              benefits (as adjusted for reconciling         submissions with no
              items) to the related amounts shown on        differences greater than 1
              the RITS submission for the                   percent.
              corresponding period.

              Report any differences greater than 1%.

              Obtain and report explanations for those
              differences above the threshold.
      2a      Randomly select a total of 25 individuals     A random sample of 25
              who were on the payroll system for all        national office employees
              three of the RITS submissions selected        was selected from the HR
              for testing that also meet the criteria set   details that met the criteria
              forth in OMB Bulletin 01-02, Appendix I-      set forth in OMB Bulletin
              1, Agreed-Upon Procedures, as                 01-02, Appendix I-1,
              amended by OMB Memorandum 04-22.              Agreed-Upon Procedures,
                                                            as amended by OMB
                                                            Memorandum 04-22.
      2b      Obtain the following documents, either        All documents listed in
              in electronic or hard copy format, from       OMB Bulletin 01-02,
              the OPFs for each individual selected in      Appendix I-1, Agreed-
              step 2a:                                      Upon Procedures, step 2b
                                                            for the selected individuals
              all Notifications of Personnel Actions        were reviewed.
              (SF-50) covering the pay periods in the
              RITS submissions chosen;

              the Health Benefits Registration Form
              (SF—2809) covering the pay periods in
              the RITS submission chosen; and

              the Life Insurance Election Form (SF-
              2817) covering the pay periods in the
              RITS submission chosen.



Prepared by R. Navarro & Associates, Inc., for the                                          11
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
             PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                                   Submitted to the U.S. Office of Personnel Management

     Step Agreed-Upon Procedures Performed                Results of Procedures
     2c   Request a report from Employee                All necessary Employee
          Express for any Health Benefits               Express (EE) transactions
          transactions in that system for the           were obtained. All
          individuals selected in step 2a.              applicable transaction
          Compare the date of the transaction with      dates were matched to
          the date on the certified copy of the SF-     those on the certified
          2809 requested in step 2b.                    copies of the SF-2809s.
                                                        All of the health benefits
            Confirm that the health benefits            information to be used in
            information to be used in the step 2g       the step 2g covered the
            covers the pay periods in the RITS          pay periods in the RITS
            submissions chosen.                         submissions chosen.
     2d     Verify that the base salary used for        The base salary shown on
            payroll purposes agrees with the base       the payroll register agreed
            salary reflected on the employee’s SF-      with the approved base
            50.                                         salary reflected on the
                                                        employee’s SF-50 without
            Report any differences.                     exception.
     2e     For Retirement, compare the plan code       The retirement plan code
            on the employees’ SF-50 to the plan         on the employees’ SF-50
            code used in the payroll system.            agreed to the plan code
                                                        used in the payroll system
            Report any differences.                     without exception.
     2f     Calculate the retirement amount to be       The calculated and actual
            withheld and contributed for the plan       retirement withholdings
            code from the employees’ SF-50, based       and contributions agreed
            upon the official withholding and           without exception.
            contribution rates required by law.

            Compare to actual amounts withheld
            and contributed.

            Report any differences.
     2g     For health benefits, verify that the        The employee
            employee withholdings and agency            withholdings and agency
            contributions agree with the official       contributions agreed with
            subscription rates issued by OPM for the    the official subscription
            plan and option elected, as documented      rates issued by OPM for
            by form SF 2809 in the employees OPF        the plan and option
            or through Employee Express.                elected, as documented
                                                        by form SF 2809 in the
            Report any differences.                     employees OPF or
                                                        through Employee
                                                        Express without
                                                        exception.
12                                         Prepared by R. Navarro & Associates, Inc., for the
                                      U.S. Department of Labor – Office of Inspector General
                                                           Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

      Step Agreed-Upon Procedures Performed                   Results of Procedures
      2h   For life insurance, verify that Basic Life       Basic Life Insurance
           Insurance was elected by the                     coverage was elected by
           employees, as documented by a SF                 the sampled employees
           2817 in the employees’ OPF.                      without exception

              Report any differences
      2i      Calculate the withholding and                 Calculated FEGLI
              contribution amounts for basic life           withholding and
              insurance using the following:                contribution amounts
                                                            agreed to actual amounts
              For employee withholdings: Round the          without exception.
              employee’s annual base salary to the
              nearest thousand dollars and add
              $2,000. Divide this total by 1,000 and
              multiply by $0.150 (for APOs with
              biweekly pay periods).

              For agency contributions: Divide the
              employee withholdings calculated above
              by 2.

              Compare to actual amounts withheld
              and contributed.

              Report any differences.
      2j      For Life Insurance, compare the optional      Optional coverage elected
              coverage elected as documented by an          as documented by an SF-
              SF-2817 in the employees’ OPF with            2817 in the employees’
              optional coverage documented in the           OPF agreed with optional
              payroll system.                               coverage documented in
                                                            the payroll system without
              Report any differences.                       exception.




Prepared by R. Navarro & Associates, Inc., for the                                          13
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
             PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                                   Submitted to the U.S. Office of Personnel Management

     Step Agreed-Upon Procedures Performed              Results of Procedures
     2k   Calculate the withholding amounts for        Life Insurance Optional
          the optional life insurance coverage         withholdings amounts
          using the following:                         agreed to the amounts
                                                       calculated using the
           For Option A: Determine the                 criteria provided by OPM
           employee’s age group using the age          without exception.
           groups provided for Option A in the
           FEGLI Program Booklet. The
           withholding amount is the rate listed in
           the FEGLI Program Booklet for that age
           group. Compare to amount withheld.
           Report any differences.

           For Option B: Inspect the SF-2817 to
           determine the number of multiples
           chosen for Option B. Determine the
           employee’s age group using the age
           groups provided for Option B in the
           FEGLI Program Booklet. Round the
           employee’s annual rate of basic pay up
           to the next 1,000, and multiply by the
           rate for the age group. Multiply this
           amount by the number of multiples
           chosen. Compare to amounts withheld.
           Report any differences.

           For Option C: Inspect the SF-2817 to
           determine the number of multiples
           chosen for Option C. Determine the
           employee’s age group using the age
           groups provided for Option C in the
           FEGLI Program Booklet. Multiply the
           rate for the age group by the number of
           multiples chosen. Compare to amount
           withheld. Report any differences.
     3     Randomly select a total of 10 employees Health Benefits were not
           who have no Health Benefits from the    elected by the sampled
           three pay periods selected for testing. employees without
                                                   exception.
           Verify that the employees did not elect
           Health Benefits coverage.

           Report any exceptions.



14                                        Prepared by R. Navarro & Associates, Inc., for the
                                     U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

      Step Agreed-Upon Procedures Performed                   Results of Procedures
      4    Randomly select a total of 10 employees          The sampled employees
           who have no Life Insurance withholdings          did not elect Life
           from the three pay periods selected for          Insurance coverage
           testing.                                         without exception.

              Verify that the employees either waived
              or canceled Life Insurance coverage.

              Report any exceptions.
      5a      Obtain existing payroll information           The Payroll and HR
              supporting the selected Supplemental          information supporting the
              Semiannual Headcount report.                  Semiannual Headcount
                                                            report was obtained.
      5b      Calculate the headcount by counting the       The headcount was
              number of employees (using a computer         calculated using the
              audit routine) on the payroll data file for   payroll details (15,736)
              the period.                                   and the HR details
                                                            (15,615).
      5c      Compare the results of payroll                The results of the payroll
              information from step 5a with the             and HR information
              calculated headcount from step 5b to          calculated headcounts
              the information shown on the                  were compared with the
              Semiannual Headcount Report.                  Semiannual Headcount
                                                            Report.
      5d      Report any differences greater than 2         The variances between
              percent between the agency’s                  the Semiannual
              Semiannual Headcount Report and the           Headcount Report and the
              payroll information from step 5a and the      payroll calculated
              calculated headcount from step 5b.            headcount (0.21%) and
                                                            between the Semiannual
                                                            Headcount Report and HR
                                                            details calculated
                                                            headcount (0.98%) were
                                                            less than 2 percent.
      6a      Calculate Retirement withholdings and         All variances between the
              contributions by multiplying the CSRS         calculated retirement
              and FERS payroll base by the                  amounts and the RITS
              withholding and employer contribution         submissions were less
              rates required by law. Compare the            than 5 percent.
              calculated totals with related amounts
              shown on the RITS submissions.

              Report any variance greater than 5
              percent.

Prepared by R. Navarro & Associates, Inc., for the                                          15
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
             PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                                   Submitted to the U.S. Office of Personnel Management

     Step Agreed-Upon Procedures Performed               Results of Procedures
     6b   Calculate Health Benefit withholdings        All variances between the
          and contributions by multiplying the         calculated health benefits
          number of employees enrolled in each         amounts and the RITS
          Health Benefit plan and plan option by       submissions were less
          the employee withholdings and                than 5 percent.
          employer contributions for the plan and
          option. Sum the totals and compare the
          result with the RITS submission.

           Report any variances greater than 5
           percent.
     6c    Calculate the Basic Life insurance          All variances between the
           withholdings and contributions as           calculated basic life
           follows:                                    insurance withholding and
                                                       contribution amounts and
           For employee withholdings: Add the          the RITS submissions
           product of 2,000 times the number of        were less than 5 percent.
           employees with Basic Life Insurance
           coverage to the aggregate annual basic
           pay for all employees selected. This
           represents the estimated Basic Life
           Insurance coverage. Divide this total by
           1,000 and multiply by $0.155 (for APOs
           with biweekly pay periods. Compare the
           results with the RITS submission.

           For agency contributions: Divide the
           employee withholdings by 2 – this
           approximates agency contributions,
           which are one-half of employee
           withholdings.

           Compare the results with the RITS
           submission.

           Report any variances greater than 5
           percent.




16                                        Prepared by R. Navarro & Associates, Inc., for the
                                     U.S. Department of Labor – Office of Inspector General
                                                          Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

      Step Agreed-Upon Procedures Performed                   Results of Procedures
      6d   Calculate the Option A, Option B, and            All variances between the
           Option C Life Insurance coverage                 calculated Option A,
           withholdings for the three pay periods           Option B, and Option C
           selected by using the results of payroll         withholding amounts and
           system queries from step 6a.                     the RITS submissions
                                                            were less than 2 percent.
              Multiply the number of employees in
              each age group by the appropriate rate
              for Option A in accordance with the rate
              for age groups provided in the FEGLI
              Program Booklet. Report any
              differences greater than 2 percent.

              Divide the reports for Option B and
              Option C insurance into the age groups
              shown in the FEGLI Program Booklet.
              For Option B, round the employee’s
              annual rate of basic pay up to the next
              1,000, divide by 1,000, multiply by the
              rate for the age group, and multiply this
              by the number of multiples.

              For Option C, multiply the rate for the
              age group B the number of multiples
              chosen for each employee.

              Report any differences (i.e., gross rather
              than net) greater than 2 percent of the
              amounts on the RITS submission for
              Option B and/or Option C.




Prepared by R. Navarro & Associates, Inc., for the                                          17
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
     PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                           Submitted to the U.S. Office of Personnel Management




       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                Prepared by R. Navarro & Associates, Inc., for the
                             U.S. Department of Labor – Office of Inspector General
                                                  Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management




Appendices




Prepared by R. Navarro & Associates, Inc., for the                                          19
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
     PAGE HAS BEEN INTENTIONALLY LEFT BLANK Agreed-Upon Procedures Report
                           Submitted to the U.S. Office of Personnel Management




       PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                Prepared by R. Navarro & Associates, Inc., for the
                             U.S. Department of Labor – Office of Inspector General
                                                  Report Number: 22-05-012-13-001
                                                                 Agreed-Upon Procedures Report
                                           Submitted to the U.S. Office of Personnel Management

                                                                                APPENDIX A
ACRONYMS AND ABBREVIATIONS


APO           Agency Payroll Office
AUP           Agreed-Upon Procedure(s)
CSRS          Civil Service Retirement System
EE            Employee Express
FERS          Federal Employee Retirement System
HR            Human Resource(s)
OMB           Office of Management and Budget
OPF           Official Personnel File
OPM           Office of Personnel Management
RITS          Retirement and Insurance Transfer System
SF            Standard Form




Prepared by R. Navarro & Associates, Inc., for the                                          21
U.S. Department of Labor – Office of Inspector General
Report Number: 22-05-012-13-001
